Report No. D-2009-002         October 10, 2008




     Attestation of the Department of the
  Navy's Environmental Disposal for Weapons
      Systems Audit Readiness Assertion
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
FIP                           Financial Improvement Program
GAO                           Government Accountability Office
HHG                           Hitchhikers Guide to Navy Surface Ships
LDT                           Light Displacement Tonnage
NAVSEA                        Naval Sea Systems Command
NAVSHIPSO                     NAVSEA Shipbuilding Support Office
NVR                           Naval Vessel Register
OIG                           Office of the Inspector General
USS                           United States Ship
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704



                                                                                  October 10, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                  FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE


SUBJECT: Attestation of the Department of the Navy's Environmental Disposal for Weapons
         Systems Audit Readiness Assertion (Report No. D-2009-002)

We are providing this report for review and comment. We considered comments from the Office
of the Assistant Secretary of the Navy (Financial Management and Comptroller) and the
Commander, Naval Sea Systems Command when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The comments
from the Department of the Navy were only partially responsive. Therefore, we request additional
comments on Recommendations A.1-2., B., C.1-4., and D.1-2. by November 10, 2008.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If possible,
send your comments in electronic format (Adobe Acrobat file only) to Aud CLEV@dodig.mil.
Copies of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the / Signed / symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Edward A. Blair
at (216) 706-0074 extension 226 or Ms. Laura J. S. Croniger at (216) 706-0074 extension 227.
The team members are listed inside the back cover.



                                            t~ a./IIaJ-
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Financial Auditing Service
Report No. D-2009-002 (Project No. D2007-D000FN-0183.000)                              October 10, 2008




               Results in Brief: Attestation of the
               Department of the Navy’s Environmental
               Disposal for Weapons Systems Audit
               Readiness Assertion
                                                               not provide internal supporting
What We Did                                                    documentation necessary to determine
The overall audit objective was to perform an                  whether the environmental liability
examination and attest to the audit readiness of               calculation was reliable and reasonable,
the Navy Weapon Systems Environmental                          and
Liabilities. Specifically, we reviewed the                 •   NAVSEA FIP team did not have
Environmental Disposal for Weapons Systems                     sufficient internal controls over the
portion of the Environmental Liabilities line                  amortization workbooks.
item and related note disclosure (Note 14) as of
March 31, 2007. We tested the:                          What We Recommend
    • accuracy of the amortization workbooks            The Navy should:
        and spent nuclear fuel estimate,                   • revise standard operating procedures to
    • completeness of the environmental                       improve the reporting of the
        liability universe,                                   environmental liability,
    • reliability of external source and internal          • ensure that all of the disposal costs
        supporting documentation used in the                  related to its weapon systems are
        amortization workbooks, and                           included in its Environmental Disposal
    • control activities related to the                       for Weapons Systems line item,
        amortization workbooks.                            • ensure that the external source or
                                                              internal supporting documentation is
What We Found                                                 adequate and provided in a timely
We found that the:                                            manner, and
  • Naval Sea Systems Command                              • ensure the accuracy, reliability, and
      (NAVSEA) Financial Improvement                          authenticity of the data entered into the
      Program (FIP) team did not properly                     amortization workbooks.
      calculate and record the nuclear-powered
      and non-nuclear portion of the                    Client Comments and Our
      Environmental Liabilities line item,              Response
  • Navy did not include all of the disposal            The Director, Office of Financial Operations,
      costs related to its weapon systems in its        Assistant Secretary of the Navy (Financial
      environmental liability estimate,                 Management and Comptroller) agreed with the
  • NAVSEA FIP team did not ensure the                  recommendations, but the comments were
      adequacy or availability of the external          partially responsive. We request that the
      source documentation from the Naval               Assistant Secretary of the Navy (Financial
      Vessel Register and the Hitchhikers               Management and Comptroller) and NAVSEA
      Guide to Navy Surface Ships to support            provide comments on the final report by
      the environmental liability calculation.          November 10, 2008.
      In addition, the NAVSEA FIP team did

                                                    i
Recommendations Table

Client                            Recommendations             No Additional Comments
                                  Requiring Comment           Required
Assistant Secretary of the Navy   B.                          --
(Financial Management and
Comptroller)
Naval Sea Systems Command         A.1-2, C.1-4., and D.1-2.   --

Please provide comments by November 10, 2008.




                                               ii
Table of Contents

Results in Brief                                                             i

Introduction                                                                 1

       Objectives                                                           1
       Background                                                           1

Finding A. Recording the Environmental Disposal for Weapons Systems          3

Finding B. Completeness of the Environmental Liability for Disposal Costs
             Related to Weapons Systems                                     11

Finding C. External Source and Internal Supporting Documentation            13

Finding D. Internal Controls Over the Nuclear-Powered and Non-Nuclear
             Vessel Workbooks                                               21

Appendices

       A. Scope and Methodology                                             27
              Review of Internal Controls                                   28
              Prior Coverage                                                29
       B. Glossary                                                          31
       C. Misstatements in Aggregate                                        33
       D. Unsupported Commission Date Detail                                35
       E. Data Input Errors in Nuclear Workbook                             41
       F. Data Input Errors in Non-Nuclear Workbook                         45
       G. Attribute Sampling Methodology                                    51


Client Comments

       Department of the Navy                                               53
Introduction
Objectives
The overall audit objective was to perform an examination and attest to the audit
readiness of the Navy’s Weapon Systems Environmental Liabilities. Specifically, we
verified the audit readiness of the Environmental Disposal for Weapons Systems portion
of the Environmental Liabilities line item and related note disclosure as of
March 31, 2007. See Appendix A for a discussion of the scope and methodology, a
review of internal controls, and prior audit coverage.

Background
The Chief Financial Officers Act of 1990, as amended, requires Federal agencies to
produce auditable annual financial statements. The Navy developed the Financial
Improvement Program (FIP) to transform its business environment to support timely,
accurate, and reliable financial information. The ultimate goal of the FIP is to obtain a
clean audit opinion on the Navy financial statements. The FIP is a building block for the
Financial Improvement and Audit Readiness Plan, which lays out a process for achieving
comprehensive financial management improvements. The plan identified the
Environmental Liabilities line item as one of the Navy’s initial focus areas.

An environmental liability is a probable and measurable future outflow or expenditure of
resources that exist as of the financial reporting date for environmental cleanup costs
resulting from past transactions or events. See Appendix B for a glossary of specialized
terms. Environmental cleanup includes costs associated with the closure of facilities or
the future disposal of facilities, equipment, or munitions. These costs encompass the cost
of researching and determining the existence of hazardous waste. They also include
removing, containing, and/or disposing of hazardous waste from property, or material and
property that consist of hazardous waste at the time of shutdown or disposal of the asset.

On January 10, 2007, the Navy asserted the audit readiness on a portion of its
Environmental Liabilities: the Environmental Disposal for Weapons Systems reported on
the General Fund Balance Sheet. Environmental Disposal for Weapons Systems
accounts for $13.1 billion (69.8 percent) of the total Environmental Liabilities line item
as of March 31, 2007. In addition, the liability related to the disposal of spent nuclear
fuel accounts for $3.2 billion (17.3 percent) of the total Environmental Liabilities line
item as of March 31, 2007.

The Naval Sea Systems Command (NAVSEA) FIP team is responsible for the Navy
General Fund environmental liabilities business process. The NAVSEA FIP team
outlines how to record environmental liabilities related to the disposal of
nuclear-powered and non-nuclear vessels in separate business process memoranda. The
NAVSEA FIP team records information used to calculate the environmental liabilities in
two amortization workbooks (workbooks). The workbooks include Environmental
Liabilities for Nuclear-Powered Active and Inactive Vessels and the Environmental


                                            1
Liability Amortization Workbook for Conventional Weapons (Non-Nuclear) Vessels. In
addition, the NAVSEA FIP team obtains the spent nuclear fuel estimate from the Naval
Reactors Facility to include in the Environmental Disposal for Weapons Systems portion
of the Environmental Liabilities line item.




                                          2
Finding A. Recording the Environmental
Disposal for Weapons Systems
The Naval Reactors Facility personnel accurately calculated the disposal costs related to
the spent nuclear fuel portion of the Environmental Liabilities line item, and the Naval
Sea Systems Command (NAVSEA) Financial Improvement Program (FIP) team properly
recorded them. However, the NAVSEA FIP team did not properly calculate and record
the disposal costs related to the nuclear-powered and non-nuclear portion of the
Environmental Liabilities line item. As a result, the Navy understated the General Fund
portion of the Environmental Disposal for Weapons Systems by $21.0 million as of
March 31, 2007. The Assistant Secretary of the Navy (Financial Management and
Comptroller) should revise standard operating procedures to improve reporting of
environmental liabilities. Specifically, the NAVSEA FIP team should ensure that the
workbooks contain the following correct vessel information:

   •   commission date,
   •   light displacement tonnage (LDT),
   •   useful life, and
   •   status (such as, inactive or active).

Additionally, the NAVSEA FIP team should verify the formulas used to calculate the
environmental liability.

Spent Nuclear Fuel and Environmental Liability
Amortization Workbooks
The disposal costs related to spent nuclear fuel included all nuclear material that has been
or will be removed from all nuclear-powered vessels. The disposal costs also included all
costs from the time the spent nuclear fuel was put into a container until accepted by a
geological repository. There is significant uncertainty as to when the geological
repository will be constructed and ready to accept the spent nuclear fuel.

The NAVSEA FIP team used two amortization workbooks (workbooks) to calculate the
environmental liability: the Environmental Liabilities for Nuclear-Powered Active and
Inactive Vessels and the Environmental Liability Amortization Workbook for
Conventional Weapons (Non-Nuclear) Vessels. Vessel classification determines how the
liability is calculated. The NAVSEA FIP team classified vessels in four ways in the
workbooks: (1) active vessels commissioned after September 30, 1997, (2) active vessels
commissioned prior to October 1, 1997, (3) inactive (decommissioned) vessels, and
(4) historical inventory. The NAVSEA FIP team should recognize the full liability for
vessels commissioned prior to October 1, 1997, in the initial year recorded. They
amortized the liability over its useful life for vessels commissioned after
September 30, 1997. Vessels transferred into the historical tab carry no environmental
liability and are included only for documentation purposes.


                                               3
Reporting of Spent Nuclear Fuel Environmental Liability
The Naval Reactors Facility personnel accurately calculated the disposal costs related to
the spent nuclear fuel portion of the Environmental Liabilities line item, and the
NAVSEA FIP team properly recorded them. The Naval Reactors Facility personnel
developed an estimate that properly included all costs from the time the spent nuclear fuel
was put into a container until accepted by a geological repository. The Naval Reactors
Facility personnel correctly estimated the Navy’s disposal for the spent nuclear fuel based
on information currently available. In addition, the Naval Reactors Facility personnel
incorporated an uncertainty factor into the estimate because the proposed geological
repository is not yet available to receive spent nuclear fuel.

Reporting of Nuclear-Powered Vessels Environmental
Liabilities
The NAVSEA FIP team did not properly calculate and record the Environmental
Liabilities line item. We analyzed the workbook for nuclear-powered vessels. We
identified an additional $17.0 million of environmental liabilities not reported on the
Navy Balance Sheet.

We identified several errors in the workbook that led to an understatement of
$17.0 million. The errors included vessels with incorrect commission dates, LDT, and
useful life. These errors occurred because the Assistant Secretary of the Navy (Financial
Management and Comptroller) did not establish reliable standard operating procedures to
properly record information captured in the workbook.

Commission Dates
The NAVSEA FIP team used the incorrect commission dates to compute the
environmental liability for two active vessels commissioned after September 30, 1997:
the United States Ship (USS) Connecticut and the USS Jimmy Carter. The NAVSEA
FIP team’s process memorandum states that the source of the commission date is the
Naval Vessel Register (NVR). The NAVSEA FIP team used commission dates to
compute the environmental liabilities for active vessels commissioned after
September 30, 1997. By using incorrect commission dates, the Navy overstated its
environmental liability by $21.2 million.

Light Displacement Tonnage
The NAVSEA FIP team used the incorrect LDT to compute the environmental liability
for four active commissioned vessels: the USS Nimitz, the USS Theodore Roosevelt, the
USS George Washington, and the USS Ronald Reagan. The NAVSEA FIP team’s
process memorandum states that the Hitchhikers Guide to Navy Surface Ships (HHG) is
the primary source of the LDT. The secondary source was the NVR. The NAVSEA FIP
team did not use the LDT from either source, and we were unable to determine the source
they used. Therefore, the NAVSEA FIP team understated the LDT by 353 tons. This
resulted in an understatement of $433.9 thousand on the Navy General Fund Balance
Sheet.



                                             4
Useful Life
Initially, we identified four active vessels for which the NAVSEA FIP team used the
incorrect useful life to compute the environmental liability: the USS Harry S. Truman,
the USS Ronald Reagan, the USS Connecticut, and the USS Jimmy Carter. The
NAVSEA FIP team used a useful life of 50 years to compute the environmental liability
for the USS Harry S. Truman and the USS Ronald Reagan. However, the Chief of Naval
Operations supporting documentation included in the assertion package listed a useful
life of 35 years for the USS Harry S. Truman and the USS Ronald Reagan. The
NAVSEA FIP team stated that representatives from NAVSEA 07 and NAVSEA 08 had
instructed them to change the useful life for the USS Harry S. Truman and the
USS Ronald Reagan from 35 years to 50 years. We began requesting official
documentation showing the instruction from NAVSEA 07 and NAVSEA 08 in
February 2007. After numerous requests from February 2007 to April 2008, we did not
receive the official documentation with the instruction from NAVSEA 07 and
NAVSEA 08. However, in April 2008, a representative from the Assistant Secretary of
the Navy (Financial Management and Comptroller) provided us with other
documentation that supported using the 50-year useful life for the USS Harry S. Truman
and the USS Ronald Reagan. Therefore, we performed our analysis again after
incorporating the additional supporting documentation.

Further analysis indicated that the NAVSEA FIP team still used the incorrect useful life
to compute the environmental liability for two active vessels: the USS Connecticut and
the USS Jimmy Carter. The NAVSEA FIP team overstated the total useful life for these
vessels by 6 years. This resulted in an understatement of $3.8 million on the Navy
General Fund Balance Sheet.

Reporting of Non-Nuclear Environmental Liabilities
The NAVSEA FIP team did not properly calculate and record the Environmental
Liabilities line item for the non-nuclear environmental liabilities. We analyzed the
workbook for non-nuclear vessels and identified an additional $4.0 million of
environmental liabilities not reported on the Navy Balance sheet.

We identified several errors in the workbook that led to an understatement
of $4.0 million. The errors included vessels with incorrect LDT, vessels with incorrect
useful life, a vessel with incorrect status, and an incorrect formula used to compute the
environmental liability for vessels commissioned after September 30, 1997. These errors
occurred because the Assistant Secretary of the Navy (Financial Management and
Comptroller) did not establish reliable standard operating procedures to properly record
information captured in the workbook.

Light Displacement Tonnage
The NAVSEA FIP team used the incorrect LDT to compute the environmental liability
for three inactive vessels: the USS Austin, the USS Duluth, and the USS Robin. The
NAVSEA FIP team’s process memorandum states that the HHG is the primary source of
the LDT. The secondary source is the NVR. The NAVSEA FIP team did not use the



                                            5
      LDT from either source, and we were unable to determine the source used. Therefore,
      they overstated the LDT by 676 tons. This resulted in an overstatement
      of $59.7 thousand on the Navy General Fund Balance Sheet.

      Useful Life
      The NAVSEA FIP team used the incorrect useful life to compute the environmental
      liability for two active vessels: the USS Pearl Harbor and the USS Atlantis. The
      NAVSEA FIP team recognized the estimated environmental liability over the vessel’s
      useful life for active vessels placed into service after September 30, 1997. The NAVSEA
      FIP team obtained the estimated useful life from the Office of the Chief of Naval
      Operations. The NAVSEA FIP team did not use the useful life provided to them by the
      Chief of Naval Operations to calculate the environmental liability. The NAVSEA FIP
      team overstated the total useful life reported by 20 years. This resulted in an
      understatement of $37.7 thousand on the Navy General Fund Balance Sheet.

      Status
      The NAVSEA FIP team used the incorrect status for one vessel. When a vessel is
      completely disposed, the NAVSEA FIP team transfers it from inactive to historical status.
      The NAVSEA FIP team incorrectly reported a disposed vessel, the USS Valley Forge, as
      inactive in the workbook. According to the NVR, the vessel was in a historical status
      and, therefore, should no longer carry an environmental liability. However, the
      NAVSEA FIP team continued to report the environmental liability in the workbook. This
      resulted in an overstatement of $650.7 thousand on the Navy General Fund Balance
      Sheet.

      Workbook Formulas
      The NAVSEA FIP team did not accurately compute the environmental liability for
      vessels placed into service after September 30, 1997. The DoD Regulation 7000.14-R,
      “DoD Financial Management Regulation,” volume 4, chapter 13, October 2005, states
      that the Component should systematically recognize the estimated environmental
      liabilities associated with General Property, Plant, and Equipment placed in service after
      September 30, 1997, over the useful life. Table 1 provides an example of how the
      NAVSEA FIP team used the workbook to calculate the environmental liability. The
      NAVSEA FIP team incorrectly multiplied the total disposal per vessel (Column A)
      by 25 percent. Instead, they should have multiplied the total recognized liability per
      vessel to date (Column E) by 25 percent.

      Table 1. Incorrect Environmental Liability Calculation by the NAVSEA FIP Team
    A          B         C              D                E                   F                     G
  Total      Useful   Elapsed   Total Recognized       Total        Total Recognized       Total Recognized
 Disposal     Life    Service     Liability Per     Recognized       Environmental        Non-Environmental
Per Vessel            in Life      Vessel Per      Liability Per      Liability Per       Liability Per Vessel
                                    Annum          Vessel to Date   Vessel (25 percent)      (75 percent)
$1,000,000    25        10          $10,000          $100,000            $25,000               $75,000
                                  (A x .25) ÷ B        CxD                E x .25                E-F




                                                     6
      Table 2 provides an example of how the NAVSEA FIP team should have computed the
      environmental liability according to their process memorandum.

                           Table 2. Correct Environmental Liability Calculation
    A              B         C             D                 E                   F                     G
  Total          Useful   Elapsed   Total Recognized       Total        Total Recognized       Total Recognized
 Disposal         Life    Service     Liability Per     Recognized       Environmental        Non-Environmental
Per Vessel                in Life      Vessel Per      Liability Per      Liability Per       Liability Per Vessel
                                        Annum          Vessel to Date   Vessel (25 percent)      (75 percent)
$1,000,000        25        10          $40,000          $400,000           $100,000               $300,000
                                          A÷B              CxD                E x .25                 E-F

      The NAVSEA FIP team did not use the correct environmental liability calculation. This
      resulted in an understatement of $4.6 million on the Navy General Fund Balance Sheet.

      Client Comments on the Finding and Our Response
      Navy Comments
      The Comptroller/Deputy Commander of NAVSEA:

             •    stated that we did not inform the NAVSEA FIP team of the additional $17 million
                  of environmental liability not reported on the Navy Balance Sheet for the
                  nuclear-powered vessels environmental liability;
             •    disagreed with our statement that the NAVSEA FIP team used the incorrect useful
                  life to compute the environmental liability for two active nuclear-powered
                  vessels, indicating that the useful life for those two vessels is 33 years; and
             •    disagreed with our statement that the NAVSEA FIP team used the incorrect useful
                  life to compute the environmental liability for two active non-nuclear vessels,
                  indicating that the useful life for two vessels is 25 years.

      Our Response
      On August 13, 2007, we e-mailed the Department of the Navy (Financial Management
      and Comptroller) and NAVSEA FIP team representatives regarding specific
      misstatements we identified in the reporting of the nuclear-powered vessels
      environmental liability. On August 17, 2007, a NAVSEA FIP team representative
      informed the Department of the Navy (Financial Management and Comptroller)
      representative that the supporting documentation would have to be reviewed before
      making any adjustments. We did not receive any other response or request from
      Department of the Navy (Financial Management and Comptroller) or NAVSEA FIP team
      representatives to discuss the misstatements identified.

      The process memorandum for nuclear-powered vessels states that the Chief of Naval
      Operations provides the NAVSEA Estimated Useful Life Ship Listing document as the
      supporting documentation for the useful life for nuclear powered vessels. This document
      states that the estimated useful life for the Seawolf (SSN-21) Class is 30 years. Because
      the USS Connecticut and the USS Jimmy Carter are Seawolf (SSN-21) Class vessels,
      they should have a useful life of 30 years. However, the NAVSEA FIP team


                                                        7
included 33 years as the useful life for the USS Connecticut and the USS Jimmy Carter in
the workbook. This resulted in an overstatement of 3 years for the useful life of both the
USS Connecticut and the USS Jimmy Carter, a total overstatement of 6 years.

The process memorandum for non-nuclear vessels states that the Chief of Naval
Operations provides the NAVSEA Estimated Useful Life Ship Listing document as the
supporting documentation for the useful life. This document states that the estimated
useful life for the Landing Ship Dock 49 Class is 25 years and the estimated useful life
for the Auxiliary General Oceanographic Research 23 Class is 20 years. According to
the NVR, the USS Pearl Harbor is a Landing Ship Dock 49 Class vessel and the
USS Atlantis is an Auxiliary General Oceanographic Research 23 Class vessel.
Therefore, the USS Pearl Harbor and USS Atlantis should have a useful life of 25 years
and 20 years, respectively. However, the NAVSEA FIP team included 40 years as the
useful life for the USS Pearl Harbor and 25 years as the useful life for the USS Atlantis
in the workbook. This resulted in an overstatement of 15 years and 5 years for the useful
life, respectively, or a total overstatement of 20 years for the two vessels.

In addition, we included the other Auxiliary General Oceanographic Research 26 Class
vessel, the USS Kilo Moana, as one of the 111 non-nuclear vessel useful life errors that
could affect the Navy Balance Sheet (See Finding D). According to the NVR, the USS
Kilo Moana is an Auxiliary General Oceanographic Research 26 Class vessel. The
NAVSEA Estimated Useful Life Ship Listing document did not list an estimated useful
life for the Auxiliary General Oceanographic Research 26 Class. The NAVSEA FIP
Team included 25 years as the useful life for the USS Kilo Moana. We were unable to
determine the financial impact of this error because the useful life for this vessel was not
included in the supporting documentation. Therefore, we identified the useful life error
as potentially affecting the Navy Balance Sheet.

Recommendations, Client Comments, and Our
Response
A. We recommend that the Assistant Secretary of the Navy (Financial Management
and Comptroller) revise standard operating procedures to improve the reporting of
the environmental liability. Specifically, the Naval Sea Systems Command Financial
Improvement Program team should ensure that the Environmental Liabilities for
Nuclear-Powered Active and Inactive Vessels Workbook and the Environmental
Liability Amortization Workbook for Conventional Weapons (Non-Nuclear) Vessels
contain:

      1. Correct vessel information such as commission date, light displacement
tonnage, useful life, and status.

Navy Comments
The Comptroller/Deputy Commander of NAVSEA stated that DoD Office of the
Inspector General (OIG) auditors did not provide the NAVSEA central point of contact
with the list of the 204 vessels for which the external source documentation from the


                                              8
NVR did not support the commission date of the selected vessels. She also stated that the
commission date only impacts a small portion of the environmental liability estimate.
There has been an effort within NAVSEA to ensure that there is an official useful life
listing for vessels to address inconsistencies in sources of this information. In addition,
she stated that the other fields (fleet ownership, hull number, and unit identification code)
do not have an impact on the environmental liability estimate. Specifically, the fleet
ownership of a vessel can change during the life of a vessel. When DoD OIG auditors
checked the fleet ownership against the NVR, the information could have changed since
the setup and review of the data.

Our Response
The Department of the Navy comments were partially responsive. The NAVSEA FIP
team did not request a list of the 204 vessels with unsupported commission dates during
our audit. However, we have included this information in Appendix D. We considered
any deviation between the workbooks and the supporting documentation an error. We
stated in this report that we found 262 errors that could cause misstatements on the Navy
General Fund Balance Sheet. We also stated that we identified the errors in the
commission date, status, light displacement tonnage, and useful life data fields. The
NAVSEA FIP team uses these data elements to calculate the environmental liability.
Therefore, an error in one of the data fields could result in either an overstatement or an
understatement to the environmental liability estimate and further lead to a misstatement
on the Navy General Fund Balance Sheet. Although the NAVSEA FIP team did not use
the fleet, hull number, and unit identification code to calculate the environmental
liability, an error in these data fields represents an internal control weakness and poses a
concern for the integrity of the workbooks. Furthermore, we compared the fleet
ownership in the workbooks to the fleet ownership documented in the NVR at the time of
our audit. An archive of the NVR was not available and there was no audit trail of
changes made to the NVR. In addition, the NAVSEA FIP team did not retain the support
from the NVR for information included in the workbooks as of March 31, 2007.
Therefore, we relied on the information that was in the NVR when we performed our
review. Lastly, we considered the LDT variances as an internal control weakness. The
NAVSEA FIP team did not ensure the adequacy or availability of the supporting
documentation from the HHG. In its assertion package, the Navy stated that there is
sufficient audit-ready evidential matter to support the environmental liability transactions.
However, we determined that only 2 of the 32 vessels that we requested supporting
documentation for were properly supported. We request that the Comptroller/Deputy
Commander of NAVSEA reconsider her position and provide comments on this
recommendation and corrective action(s) with milestones in response to the final report.

       2. Accurate formulas used to calculate the environmental liability.

Navy Comments
The Comptroller/Deputy Commander of NAVSEA agreed that there was an error in its
environmental liability calculation. The amortization workbook will reflect the correct
adjustment. NAVSEA will continue its efforts to ensure the integrity of internal controls



                                             9
through its Management Internal Control Program, performing annual testing of the
environmental liability process.

Our Response
The Department of the Navy comments were responsive; however, we request that the
Comptroller/Deputy Commander of NAVSEA provide a milestone for the corrective
action when commenting on the final report.

Client Comments on the Potential Misstatements
Navy Comments
The Director, Office of Financial Operations, Assistant Secretary of the Navy (Financial
Management and Comptroller) and Comptroller/Deputy Commander, Naval Sea Systems
Command were questioning the inclusion of immaterial misstatements in the report.

Our Response
The objective of this examination engagement was to attest to the audit readiness of the
Environmental Liability Disposal for Weapons Systems line item. If this had been an
actual audit of the Environmental Liability Disposal for Weapons Systems line item, we
would have performed our testing using statistical sampling methods and projected the
results of those tests over the universe of vessels being audited. As a result, the misstated
amounts may have been material. Because we were not auditing the line item balance,
this report focuses on the control environment in which the Environmental Liability
Disposal for Weapons Systems line item is calculated and managed. In addition,
regarding the immaterial misstatements identified in this report, the aggregate absolute
value of the misstatements was $158.6 million (1.2 percent) of the $13.1 billion of the
Environmental Liability Disposal for Weapons Systems line item. See Appendix C for a
discussion of the aggregate of the misstatements.

Client Comments Required
We request that management provide additional comments in response to the final report.
The comments should include elements marked with an X in Table 3.

                          Table 3. Client Comments Required
                                                        Agree/      Proposed
Recommendation                Organization             Disagree      Action       Milestone
A.1.                 Naval Sea Systems Command             X            X              X
A.2.                 Naval Sea Systems Command             --           --             X




                                             10
Finding B. Completeness of the
Environmental Liability for Disposal Costs
Related to Weapons Systems
The Navy did not completely report disposal costs related to its weapons systems in its
environmental liability estimate. For example, the Navy did not include costs related to
the disposal of aircraft. As a result, the Navy General Fund Balance Sheet was misstated.
The Assistant Secretary of the Navy (Financial Management and Comptroller) should
ensure that the Navy’s complete environmental liability for disposal costs related to
weapons systems are included in its estimate of the Environmental Disposal for Weapons
Systems line item.

Navy Aircraft
The Navy did not include its complete
environmental liability for disposal costs
related to weapons systems in its estimate of
the Environmental Disposal for Weapons
Systems line item. For example, the Navy did
not include $127.7 million for the disposal
of 1,319 F/A-18 Hornet and 591 F-14 Tomcat
aircraft. To calculate the $127.7 million
environmental liability, we multiplied the
Government Accountability Office (GAO)
demilitarization and hazardous removal costs 1
by the number of F/A-18 Hornet                              Figure 1. Naval Weapons Systems
and F-14 Tomcat aircraft in the Navy Aircraft               Photos Courtesy of the U.S. Navy and
Inventory Readiness Reporting System.                       Federation of American Scientists

We identified two classes of combat aircraft (F/A-18 Hornet and F-14 Tomcat) in the
Navy’s current inventory. The Hazardous Materials Table in 49 Code of Federal
Regulations 172.101 (2007) considers petroleum a hazardous material. Because a
petroleum product fuels these aircraft, we determined that the aircraft contain a hazardous
material and, therefore, should be included in calculating the Navy’s environmental
liability. According to the DoD Regulation 7000.14-R, volume 4, chapter 13,
“Environmental and Nonenvironmental Liabilities,” October 2005, Components must
maintain an inventory of environmental sites and reconcile it with property, plant, and
equipment records. The purpose of the reconciliation is to ensure that all of DoD’s
disposal liabilities, both environmental and nonenvironmental, are recognized. However,



1
    We adjusted the costs identified in the GAO/Accounting and Information Management Division-98-9,
    “Financial Management DOD’s Liability for Aircraft Disposal Can Be Estimated,” November 1997
    report for inflation.


                                                   11
the Navy did not consider these aircraft as environmental liabilities because no guidance
specified that these types of equipment should be included. The Navy did not include at
least $127.7 million for the disposal of 1,319 F/A-18 Hornet and 591 F-14 Tomcat
aircraft because of unclear guidance. As a result, the Navy misstated its General Fund
Balance Sheet. To mitigate this issue, the Assistant Secretary of the Navy (Financial
Management and Comptroller) should identify and report its entire disposal costs related
to weapons systems in the Environmental Disposal for Weapons Systems line item.

Recommendation, Client Comments, and Our Response
B. We recommend that the Assistant Secretary of the Navy (Financial Management
and Comptroller) ensure that all of the Navy’s disposal costs for weapons systems
are included in its Environmental Disposal for Weapons Systems line item.

Navy Comments
The Director, Office of Assistant Secretary of the Navy (Financial Management and
Comptroller) agreed and stated that although the recommendation is outside the scope of
the requested examination; his office will take appropriate action.

Our Response
The Department of the Navy comments were partially responsive. Our scope was to
examine and attest to the audit readiness of the Navy’s Weapon Systems Environmental
Liabilities. The Navy’s weapons systems are not limited to its nuclear and non-nuclear
vessels, but should include all of its weapons systems. We request that the Director,
Office of Assistant Secretary of the Navy (Financial Management and Comptroller)
provide specific corrective action(s) with milestones when commenting on the final
report.

Client Comments Required
We request that management provide additional comments in response to the final report.
The comments should include elements marked with an X in Table 4.

                         Table 4. Client Comments Required
                                                         Agree/     Proposed
Recommendation                Organization              Disagree     Action    Milestone
B.                   Assistant Secretary of the Navy        --         X            X
                        (Financial Management
                            and Comptroller)




                                             12
Finding C. External Source and Internal
Supporting Documentation
The NAVSEA FIP team did not ensure the adequacy or availability of the external source
documentation from the NVR and the HHG to support the environmental liability
calculation. In addition, they did not provide internal supporting documentation
necessary to determine whether the environmental liability calculation was reliable and
reasonable. As a result, there is an increased risk that the Navy General Fund Balance
Sheet was misstated. The Assistant Secretary of the Navy (Financial Management and
Comptroller) should ensure that the external source or internal supporting documentation
for:

    •   LDT from the HHG is adequate and
    •   commission and decommission dates from the NVR are adequate.

In addition, the documentation needs to be provided to auditors in a timely manner.

Criteria for Documentation
We reviewed external source and internal supporting documentation to verify the
accuracy and adequacy of data supporting environmental liability estimates. We
considered documentation obtained from a third party as external source documentation.
Documentation included in the assertion package, and documentation that should have
been included in the assertion package is considered internal supporting documentation.
The DoD Regulation 7000.14-R, volume 1, chapter 3, “Accounting Systems
Conformance, Evaluation, and Reporting,” May 1993, requires pertinent documents that
adequately support financial transactions. This also includes systems data. In addition,
the “Financial Improvement Initiative Business Rules,” June 23, 2004, requires activities
to have available general ledger transaction detail and supporting information for
transactions that make up the balance(s) when the Navy Financial Statements are ready
for an opinion. Furthermore, the DoD OIG memorandum, “Auditor Access for Financial
Statement Audits,” January 24, 2005, states that the reporting entity will be responsible
for providing required supporting documentation to auditors within 2 working days.

External Source Documentation
The NAVSEA FIP team did not ensure the adequacy or availability of external source
documentation used in the environmental liability calculation. The NAVSEA FIP team
used the HHG and NVR as sources for data used in the calculation. We requested the
external source documentation from the HHG for 32 out of 388 vessels. However, the




                                           13
NAVSEA FIP team only provided the external source documentation from the HHG
for 21 out of 32 vessels. This external source documentation included engineering
reports such as the:

   •   Inclining Experiment and Towing Stability Report,
   •   Pre-Depot Modernization Period Trim Dive Report and Reballast Proposal, and
   •   Actual Weight and Moment Report.

These engineering reports enabled us to verify the reasonableness of data used to estimate
the environmental liabilities. For the remaining 11 vessels, the NAVSEA FIP team was
unable to provide external source documentation because of difficulties with extracting
historical documentation. Therefore, we were unable to verify the reasonableness
of $51.9 million in environmental liability estimates. We also reviewed the external
source documentation for the NVR to evaluate the reliability of information. We
determined that the external source documentation for the NVR was also inadequate
because we could not use it to verify commission and decommission dates. The
NAVSEA FIP team did not verify that the HHG and NVR were reliable sources. In
addition, the NAVSEA FIP team did not advise the external source owners that they
would be using their documents to support the Navy’s financial statements. As a result,
there is an increased risk that the Navy General Fund Balance Sheet was misstated. The
Navy must establish proper guidance to ensure that the HHG and NVR are reliable
sources. The Assistant Secretary of the Navy (Financial Management and Comptroller)
should:

   •   notify external source owners that their information will be used to support the
       Navy’s financial statements and
   •   train external source owners on what documentation is needed to properly support
       a financial statement audit.

Hitchhikers Guide to Navy Surface Ships
The HHG is a compilation of the physical characteristics of the Navy surface vessels. It
provides a summary of pertinent information related to the stability and buoyancy
condition of the surface vessels. The LDT is one of the characteristics included in
the HHG.

The NAVSEA FIP team used the HHG as a source for the LDT to compute the
environmental liability. To ensure the availability of adequate external source
documentation for the LDT, we performed a review of the documentation for 32 out
of 388 vessels included in the workbooks. We determined whether the LDT recorded in
the workbooks was traceable to external source documentation. We considered the LDT
supported if we were able to recalculate it from the external source documentation
provided. We considered it partially supported if we were able to only trace the LDT
recorded in the workbooks to the external source documentation but not recalculate it.
We considered it unsupported if we could neither trace the LDT recorded in the
workbooks to the external source documentation nor recalculate it. Additionally, we did



                                           14
not receive any external source documentation for 11 out of 32 vessels. For the results of
the review, see Table 5.

       Table 5. External Documentation Supporting Selected Vessels From the
                      Hitchhikers Guide to Navy Surface Ships
                                   Vessels            Amount         Percent of
                                                                   Total Amount
        Supported                      2          $    9,743,408       0.8 percent
        Partially Supported            4             925,116,785      72.6 percent
        Unsupported                   15             287,827,953      22.6 percent
        Not Provided                  11              51,897,938       4.0 percent
          Total                       32          $1,274,586,084    100.0 percent

Naval Vessel Register
The NVR, an electronic database, is the official inventory of vessels in the custody of, or
titled by, the Navy. It established the baseline for estimating the environmental liability
for all Naval vessels (both nuclear-powered and non-nuclear). The NVR lists a vessel
when the classification and hull number(s) are assigned or when the Chief of Naval
Operations requests instatement or reinstatement of the vessel. Once listed, the vessel
remains in the NVR throughout its life as a Navy asset and afterward to record final
disposition.

The NAVSEA Shipbuilding Support Office (NAVSHIPSO) maintains and continuously
updates the NVR. The NAVSHIPSO, “Desk Guide Naval Vessel Register,”
September 26, 2005, requires supporting documentation in the form of correspondence,
message traffic, e-mail, and Letters of Acceptance for all data included in the NVR.
NAVSHIPSO retains these hard copy documents in individual vessel class files. They
maintain these documents to preserve an audit trail. Two key data elements in the NVR
include commission and decommission dates. The NAVSEA FIP team used the NVR for
the commission and decommission dates to calculate the environmental liability.

To ensure the availability of adequate external source documentation for the dates
included in the NVR, we performed a review of 214 out of 388 vessels selected from the
workbooks, 57 of which were decommissioned. For the results of the review, see
Tables 6 and 7. For the unsupported commission date detail, see Appendix D. We
considered the following documentation adequate for the vessels reviewed because of
their official nature:

   •   Commissioning Order (commission date);
   •   Information Request (commission date); and
   •   Approval to Decommission, Strike, and Dispose Order (decommission date).




                                             15
   Table 6. External Source Documentation Supporting the Commission Date of
                 Selected Vessels From the Naval Vessel Register
                                   Vessels            Amount          Percent of
                                                                    Total Amount
         Supported                   10           $   31,653,525        0.5 percent
         Unsupported                204            6,546,300,873       99.5 percent
           Total                    214           $6,577,954,398     100.0 percent

  Table 7. External Source Documentation Supporting the Decommission Date of
                 Selected Vessels From the Naval Vessel Register
                                   Vessels            Amount         Percent of
                                                                    Total Amount
         Supported                     9              $ 3,904,178      6.2 percent
         Unsupported                  48               59,001,342     93.8 percent
           Total                      57              $62,905,520   100.0 percent

The NAVSEA FIP team’s flowchart indicated that the Office of the Chief of Naval
Operations provided external source documentation for the NVR. External source
documentation reviewed from the NVR consisted of items such as news clippings, a
commission ceremony invitation, and e-mail traffic. We did not consider these items the
most authoritative because the Office of the Chief of Naval Operations did not provide
the majority of them. In the future, the Office of the Chief of Naval Operations must
provide all external source documentation supporting data captured in the NVR that
supports the Navy’s financial statements.

Internal Supporting Documentation
The NAVSEA FIP team did not provide internal supporting documentation for all
requests in compliance with DoD guidance. For example, we did not receive the
requested internal supporting documentation for the following data elements of the
nuclear-powered vessels workbook:

   •   average man days per light ton,
   •   man days,
   •   materials,
   •   adjustment for efficiency,
   •   hull size factor,
   •   hull recycling labor cost per type of vessel, and
   •   pre-hull recycling costs per type of vessel.

In addition, we did not receive the internal supporting documentation needed to verify the
net cost component of the average calculated cost per light ton per vessel type used in the
non-nuclear vessel workbook. If the NAVSEA FIP team had provided us with the
documentation, we could have attempted to determine the reasonableness of the data used
to estimate the environmental liabilities reported on the Navy General Fund Balance


                                             16
Sheet. Because the NAVSEA FIP team did not provide the necessary internal supporting
documentation, we were unable to determine whether the environmental liability was
reliable and reasonable. The NAVSEA FIP team must ensure that they respond to
requests for internal supporting documentation in a timely manner. Providing supporting
documentation in a timely manner during a financial statement audit is essential to
support the financial statement data and obtain an unqualified opinion on the financial
statements.

Client Comments on the Finding and Our Response
Navy Comments
The Comptroller/Deputy Commander of NAVSEA stated that the Navy provided the
information for the following in the assertion package:

   •   average man days per light ton,
   •   man days,
   •   materials,
   •   adjustment for efficiency,
   •   hull size factor,
   •   hull recycling labor cost per type of vessel,
   •   pre-hull recycling costs per type of vessel, and
   •   net cost component of the average calculated cost per light ton per vessel type.

In addition, she stated that if the DoD OIG auditors requested additional information or
explanation, the NAVSEA FIP team provided it in detailed write-ups. She also stated
that there were times when the DoD OIG auditors did not go through a central point of
contact when requesting documentation. Lastly, she recommended that for future audits
or examinations, the DoD OIG auditors and the Department of the Navy establish
mutually agreed-upon procedures during the entrance meeting to facilitate the execution
of the audit or examination.

Our Response
Statement on Auditing Standards No. 57, “Auditing Accounting Estimates,” July 7, 2007,
requires auditors to evaluate the reasonableness of accounting estimates made by
management. It also states that the auditor should obtain an understanding of how
management developed the estimate. We requested the supporting documentation
explaining the methodology used to develop the estimates from the central point of
contact through site visit meetings, e-mails, and phone conversations on several
occasions. However, the NAVSEA FIP team did not provide the additional supporting
documentation. Therefore, we were unable to obtain an understanding of how
management developed the estimate. In addition, we were not able to determine whether
the estimates used in the environmental liability calculation were reasonable. If the
estimates used in environmental liability calculation are not reasonable, the amount
reported for the Environmental Disposal for Weapon Systems portion of the
Environmental Liabilities line item on the Navy General Fund Balance Sheet may be
materially misstated.


                                           17
The Comptroller/Deputy Commander of NAVSEA recommended the use of agreed-upon
procedures for future engagements. However, agreed-upon procedures do not apply to
our findings. We announced our project as an examination attestation engagement.
According to the Financial Improvement and Audit Readiness Plan, December 2005, the
assessment phase follows the assertion phase. The purpose of the assessment phase is to
assess the reliability of the line item or financial statement that the entity asserted as
being ready for audit. During the assessment phase, the DoD OIG performs a limited
review of controls and procedures to determine whether the financial information is ready
for a full financial audit. The recommended engagement for the assessment is an
examination attestation engagement in which the auditor expresses an opinion on the
subject matter or management’s assertion on the subject matter.

An agreed-upon procedures engagement would be appropriate during the validation
phase, not during the assessment phase. According to the Office of the Under Secretary
of Defense (Comptroller)/Chief Financial Officer memorandum, “Financial Management
Improvement Initiative Assertion Process Business Rules,” June 23, 2004, a validation is
a limited scope evaluation to determine whether an entity has satisfactorily remedied
previously identified deficiencies in its financial statements or line item. This review is
the responsibility of management and may be performed by management, internal
auditors, or a contractor. The scope of specific procedures required for each validation is
the responsibility of management and is determined in the context of the materiality of
each issue or action taken in that circumstance. The auditor does not express an opinion
in an agreed-upon procedures report but only reports findings based on the specific
procedures performed. The report must state that the auditor was not engaged to perform
an examination and that if the auditors had performed additional procedures, other
matters might have come to their attention that would have been reported. Therefore, an
agreed-upon procedures engagement can limit an auditor’s procedures and does not
determine whether the financial information is ready for a full financial audit.

Recommendations, Client Comments, and Our
Response
C. We recommend that the Assistant Secretary of the Navy (Financial Management
and Comptroller) ensure that the:

       1. Light displacement tonnage is traceable to supporting documentation.

Navy Comments
The Comptroller/Deputy Commander of NAVSEA agreed and stated that the NAVSEA
FIP team is working with the point of contact for the HHG to ensure that the team uses
the most up-to-date version of this source. The Naval Systems Engineering Directorate
agreed to publish an official release of this source once a year.




                                            18
Our Response
The Department of the Navy comments were responsive. However, we request that the
Comptroller/Deputy Commander of NAVSEA provide milestones for the corrective
actions when commenting on the final report.

      2. Office of the Chief of Naval Operations provides the supporting
documentation to the Naval Sea Systems Command Shipbuilding Support Office to
support data in the Naval Vessel Register.

Navy Comments
The Comptroller/Deputy Commander of NAVSEA agreed and stated that the NAVSEA
FIP team is working with NAVSEA to ensure that official documentation for vessel
commissioning and decommissioning dates supports the NVR.

Our Response
The Department of the Navy comments were responsive. We request that the
Comptroller/Deputy Commander of NAVSEA provide milestones for the corrective
actions when commenting on the final report.

       3. External source owners are:

               a. Notified that their information is being used to support the Navy’s
financial statements and

               b. Trained on what documentation is needed to properly support a
financial statement audit.

Navy Comments
The Department of the Navy did not comment on this recommendation.

Our Response
We request that the Comptroller/Deputy Commander of NAVSEA provide comments on
this recommendation and corrective action(s) with milestones in response to the final
report.

       4. Naval Sea Systems Command Financial Improvement Program team
provides documentation that the auditor requests in accordance with the
Department of Defense Office of Inspector General memorandum, “Auditor Access
for Financial Statement Audits,” January 24, 2005.

Navy Comments
The Comptroller/Deputy Commander of NAVSEA disagreed and stated that for future
audits/examinations, the DoD OIG and the Department of the Navy should agree on
using a central point of contact at the command level to better coordinate efforts among
the parties. The DoD OIG reported that supporting information was requested from


                                           19
SEA 07 and SEA 08. However, SEA 07 and SEA 08 do not agree that the DoD OIG
requested the supporting information. In addition, the Comptroller/Deputy Commander
of NAVSEA stated that the DoD OIG auditors did not request the source documentation
for the HHG from either the central NAVSEA point of contact or the NAVSEA FIP
team. She stated that the DoD OIG auditors did not bring this information to the
NAVSEA central point of contact until several weeks later when the DoD OIG auditors
were debriefing the Office of Financial Operations, Financial Management Office.
Furthermore, the Comptroller/Deputy Commander of NAVSEA stated that the DoD OIG
auditors did not request the supporting documentation for the NVR from the NAVSEA
central point of contact and the NAVSEA FIP team was unaware of what the DoD OIG
auditors requested and what information NAVSHIPSO provided.

Our Response
The Department of the Navy comments were partially responsive. As a part of our audit
process, we provide an Audit Announcement Memorandum that requests a point of
contact for the audit who is a Government employee and at the program director level.
At the beginning of the audit, the Navy provided an initial point of contact for the audit
and never reassigned this position. However, throughout the audit, our requests were
either directed or forwarded to the NAVSEA FIP team representative (a contractor). We
initially requested supporting documentation for the HHG from the data owner’s point of
contact. However, the central NAVSEA FIP team point of contact was aware of our
request within 2 days. We also contacted the data owner point of contact to request
documentation supporting the NVR. In addition, we made the NAVSEA FIP team point
of contact aware of our initial request. We request that the Comptroller/Deputy
Commander of NAVSEA reconsider her position and provide corrective action(s) with
milestones when commenting on the final report.

Client Comments Required
We request that management provide additional comments in response to the final report.
The comments should include elements marked with an X in Table 8.

                         Table 8. Client Comments Required
                                                          Agree/ Proposed
Recommendation                 Organization              Disagree  Action Milestone
C.1                   Naval Sea Systems Command              --         --          X
C.2                   Naval Sea Systems Command              --         --          X
C.3.a., 3.b.          Naval Sea Systems Command              X          X           X
C.4.                  Naval Sea Systems Command              X          X           X




                                            20
Finding D. Internal Controls Over the
Nuclear-Powered and Non-Nuclear Vessel
Workbooks
The NAVSEA FIP team did not establish adequate internal controls over the workbooks.
Specifically, management did not establish sufficient internal controls over the review of
the workbooks or adequate control activities over the workbooks. As a result, a high-risk
environment 2 contributable by an increased risk of unauthorized changes, misstatements,
and unaccountable errors in the workbooks, diminishes the integrity of the workbooks.
The NAVSEA FIP team should:

       •   properly reconcile the data from the workbooks to the external source
           documentation and internal supporting documentation, as stated in its process
           memoranda;
       •   ensure the accuracy and reliability of the data entered into the workbooks; and
       •   revise standard operating procedures to ensure that control activities are in place
           and properly working.

Data Elements and Workbook Integrity
The NAVSEA FIP team did not have sufficient internal controls over the workbooks.
We reviewed the accuracy of the data elements included in the workbooks. We
identified 329 errors out of 2,830 data fields reviewed: 122 errors for nuclear-powered
vessels and 207 errors for non-nuclear vessels. Specifically, we identified errors in the
following eight data elements:

       •   commission dates,
       •   status,
       •   LDT,
       •   useful life,
       •   decommission dates,
       •   fleet,
       •   hull number, and
       •   unit identification code

Out of 2,830 data fields reviewed, we found 262 errors that could cause misstatements on
the Navy General Fund Balance Sheet. All errors identified pose a concern for the
integrity of the workbooks. See Tables 9 and 10 for the summary of the review and
Appendixes E and F for the details.



2
    A high-risk environment requires the auditors to increase the amount of substantive testing necessary to
    obtain an acceptable level of audit assurance.


                                                       21
    Table 9. Data Input Errors in Workbooks Potentially Affecting Balance Sheet
Data Element                          Nuclear-             Non-Nuclear          Total Errors
                                    Powered Vessel         Vessel Errors
                                       Errors
Commission Date                          52                      38                   90
Status                                    0                       8                    8
LDT                                       3                       4                    7
Useful Life                              46                     111                  157
 Total                                  101                     161                  262

       Table 10. Data Input Errors in Workbooks Not Affecting Balance Sheet
Data Element                          Nuclear-             Non-Nuclear          Total Errors
                                    Powered Vessel         Vessel Errors
                                       Errors
Decommission Date                         8                        6                  14
Fleet                                    11                       26                  37
Hull Number                               0                        1                   1
Unit Identification Code                  2                       13                  15
  Total                                  21                       46                  67

 The NAVSEA FIP team entered inaccurate data in the workbooks. The commission date,
 status, LDT, and useful life comprise the data elements in which we identified 262 errors
 out of 1,616 data fields reviewed that could cause the Navy to misstate its General Fund
 Balance Sheet. The NAVSEA FIP team used these data elements to compute the
 environmental liability. If an incorrect commission date, status, LDT, or useful life is
 used, it could result in either an overstatement or understatement on the Navy General
 Fund Balance Sheet.

 All errors identified pose a concern for the integrity of the workbooks. If the integrity of
 the workbooks is compromised, they are not reliable and should not be used to calculate
 Balance Sheet information. Reliability ensures that the information presented is free
 from error and accurately represents the facts. In addition, it ensures that internal
 controls are functioning correctly. Furthermore, when auditors assess internal controls as
 ineffective, they must increase the extent of substantive testing. This could significantly
 increase the cost and time necessary to complete the audit.

 The NAVSEA FIP team must ensure that data entered into the workbooks are accurate.
 NAVSEA personnel must properly reconcile data to the external source documentation
 and internal supporting documentation, as stated in its process memoranda.




                                             22
Specifically, the process memoranda require NAVSEA personnel to perform the
following annual updates:

   •   obtain the latest available HHG to review and then update the LDT amounts for
       all vessels in the workbooks;
   •   compare the recorded useful life of the vessels to general property, plant, and
       equipment records to determine any variances and resolve them. Capital Asset
       Management System – Military Equipment is the applicable general property,
       plant, and equipment system for the Navy;
   •   determine other variables included in the workbooks that need to be updated (that
       is, the Labor Cost Man Day Rate, the Material Handling percentage, and number
       of Man days to dispose of vessels); and
   •   obtain prior fiscal year costs to dispose inactive vessels and update the historical
       cost spreadsheet.

The NAVSEA personnel performing the annual updates should have previously
identified and corrected the errors we identified. Properly performing these updates and
reconciliations at least annually will help mitigate future data errors in the workbooks.

Control Activities
The GAO publication GAO/Accounting Information Management Division-00-21.3.1,
“Standards for Internal Control in the Federal Government,” November 1999, states:

               Access to resources and records should be limited to authorized
               individuals and accountability for their custody and use should be
               assigned and maintained. Periodic comparison of resources with the
               recorded accountability should be made to help reduce the risk of
               errors, fraud, misuse, or unauthorized alteration.

In addition, the publication requires the establishment of controls that ensure only
personnel acting within their authority authorize and execute all transactions. The
NAVSEA FIP team did not adequately ensure proper access and accountability for
resources and records. The NAVSEA FIP team used Microsoft ® Excel software to
create the workbooks. The software allows only one password to protect a file. This is
an inherent weakness of the software. Without tracking user activity, Microsoft ® Excel
allows unauthorized users to make changes to the workbooks. Enabling the track
changes feature in the software is one example to mitigate the weakness. The track
changes feature would identify each user by their computer login name and subsequently
track any changes made by that user. In addition, the NAVSEA FIP team did not
maintain a log to record changes. Users could make unauthorized changes to the
workbooks that would go unnoticed. Enabling the track changes feature would also
mitigate this weakness. The track changes feature can generate a separate report of the
changes made to the workbooks.

According to the DoD Regulation 7000.14-R, volume 4, chapter 13, October 2005, the
NAVSEA FIP team should retain, for the life of the liability, documentation to support
the environmental liability recognition and disclosures, including management reviews.


                                              23
The NAVSEA FIP team maintained a hard copy of the completed workbooks with
signatures. However, we could not specifically identify the preparer or reviewers. In
addition, dates were not always included with the signatures. As a result, accountability
was lost because the preparer or reviewer could not be identified. In addition, it was
undeterminable whether the management review occurred in a timely manner. To
eliminate this weakness, the NAVSEA FIP team should legibly identify the preparers and
reviewers. This should include the preparer or reviewer’s printed name, a title block (that
is, preparer or reviewer), a signature line, and date of signature.

Client Comments on the Finding and Our Response
Navy Comments
The Comptroller/Deputy Commander of NAVSEA stated that we did not provide the
NAVSEA central point of contact with a listing or accounting of the 327 errors identified.
She also stated that we identified 262 errors out of 2,830 data fields that had an impact on
the environmental liability estimate but did not provide a summary of those errors.

Our Response
As a result of the Comptroller/Deputy Commander of NAVSEA’s comments, we added
Appendix E and F to illustrate the errors we identified for each nuclear and non-nuclear
vessel.

Recommendations, Client Comments, and Our
Response
D. We recommend that the Assistant Secretary of the Navy (Financial Management
and Comptroller) ensure the accuracy, reliability, and authenticity of the data
entered into the workbooks.

       1. Specifically, the Naval Sea Systems Command personnel should:

               a. Properly reconcile data from the Environmental Liabilities for
Nuclear-Powered Active and Inactive Vessels Workbook and the Environmental
Liability Amortization Workbook for Conventional Weapons (Non-Nuclear) Vessels
to external source documentation and internal supporting documentation, as stated
in its process memoranda.

                b. Properly review the formulas and corresponding data in the
Environmental Liabilities for Nuclear-Powered Active and Inactive Vessels
Workbook and the Environmental Liability Amortization Workbook for
Conventional Weapons (Non-Nuclear) Vessels at least annually for accuracy and
reliability of the data.

Navy Comments
The Comptroller/Deputy Commander of NAVSEA agreed and stated that NAVSEA will
continue its efforts to ensure the effectiveness of internal controls through its
Management Internal Control Program. NAVSEA will perform annual testing of the


                                            24
environmental liability process. In addition, the NAVSEA FIP team will review the
memoranda and ensure that they incorporate the recommendations made by the DoD OIG
into the documents.

Our Response
The Department of the Navy comments were responsive. We request that the
Comptroller/Deputy Commander of NAVSEA provide milestones for the corrective
actions when commenting on the final report.

      2. Specifically, the Naval Sea Systems Command Financial Improvement
Program team should:

             a. Ensure access restrictions to and accountability for the
Environmental Liabilities for Nuclear-Powered Active and Inactive Vessels
Workbook and the Environmental Liability Amortization Workbook for
Conventional Weapons (Non-Nuclear) Vessels by:

                     (1) Requiring a log to record and track changes that identify
the change, the user name, and the date of the change.

                      (2) Ensuring appropriate personnel authorize and perform
transactions by including the preparer or reviewer’s printed name, a title block, a
signature line, and date of signature.

Navy Comments
The Comptroller/Deputy Commander of NAVSEA partially agreed and stated that the
NAVSEA FIP team will ensure that the preparer and reviewer include their signatures, a
date, printed name, and title on the workbooks after reviewing them. In addition, at the
bottom of each worksheet, they will include a username with numbered and dated
comments that identify the changes made. However, she went on to state that
unauthorized access to the workbooks was a very low risk.

NAVSEA will continue its efforts to ensure the effectiveness of internal controls through
its Management Internal Control Program. NAVSEA will perform annual testing of the
environmental liability process. The NAVSEA FIP team will review the memoranda and
ensure that they incorporate the recommendations made by DoD OIG into the documents.

Our Response
The Department of the Navy comments were partially responsive. Access restriction to
and accountability for resources of records not only refers to password protection but also
the ability to be accountable for the custody and use of the records. Further, the
NAVSEA FIP team should set up the workbooks to document a system-generated record
of users accessing the system to help reduce the risk of errors, fraud, misuse, or
unauthorized alteration (for example, a log of what was changed, who made the change,
and when the change was made). There is no verifiable way to determine these elements.
Because the NAVSEA FIP team shares the password, the ability to record who accessed


                                            25
the program is an inherent weakness. NAVSEA should have alternative steps in place to
identify who accessed the program and to document any changes made independent of
the user. A system-generated record would strengthen the control environment. By
enhancing these controls, NAVSEA will comply with GAO guidance. We request that
the Comptroller/Deputy Commander of NAVSEA provide milestones for the corrective
actions when commenting on the final report.

Client Comments Required
We request that management provide comments in response to the final report. The
comments should include elements marked with an X in Table 11.

                        Table 11. Client Comments Required
                                                       Agree/ Proposed
Recommendation                Organization            Disagree  Action Milestone
D.1.a., 1.b.           Naval Sea Systems Command         --         --          X
D.2.a.(1)., 2.a.(2).   Naval Sea Systems Command         X          X           X




                                         26
Appendix A. Scope and Methodology
We conducted this attestation engagement from May 2007 through June 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the attestation engagement to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our attestation objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our attestation objectives.

The scope of this attestation engagement was limited to the review of the Navy Weapons
Systems portion of the Environmental Liabilities reported as of March 31, 2007. We
reviewed pertinent Federal and DoD regulations, policies, and GAO guidance relating to
environmental liabilities and internal controls. We reviewed the Balance Sheet and
related Note 14 based on the Navy’s assertion and recalculated the amounts in the
workbooks and the spent nuclear fuel disposal estimate to verify the accuracy of the
environmental liabilities. In addition, we verified that totals included in the Balance
Sheet and related footnote were traceable to the workbooks; reconciled the nuclear-
powered and non-nuclear vessels included in the workbooks to the vessels listed in the
NVR; verified that the environmental liabilities were recorded in the proper accounting
period; determined whether the vessels were properly classified as active, inactive, or
disposed; determined whether the environmental liabilities were the responsibility of the
Navy; and verified that the financial information was appropriately presented and
described, and disclosures were clearly expressed in Note 14.

We reviewed the external source documentation for data elements included in the
workbooks. Specifically, we reviewed external source documentation of 32 vessels to
verify the LDT for each vessel. We chose the 32 vessels from a universe of 388 vessels
included in the workbooks. NAVSEA personnel provided the external documentation in
support of only 21 of the vessels that were included in the HHG. We also reviewed
external source documentation of 214 vessels to verify the commission and
decommission dates for each vessel. We chose the 214 vessels from a universe
of 388 vessels included in the workbooks. NAVSHIPSO provided the external
documentation in support of the vessels that were included in the NVR.

We attempted to review the internal supporting documentation for the following data
elements included in the workbooks:

   •   average man days per light ton,
   •   man days,
   •   materials,
   •   adjustment for efficiency,
   •   hull size factor,
   •   hull recycling labor cost per type of vessel, and
   •   pre-hull recycling costs per type of vessel.




                                            27
We performed this attestation engagement at various locations including NAVSEA
Headquarters in Washington Navy Yard in Washington, D.C., NAVSEA Shipbuilding
Support Office in Philadelphia, and Naval Reactors Facility in Idaho Falls. We contacted
and interviewed representatives at each site listed.

Our original objective was to perform an examination and attest to the audit readiness of
the Navy Weapons Systems Environmental Liabilities. We intended to attest to all of the
management assertions. However, we did not consider the existence assertion related to
the nuclear and non-nuclear vessels (assets) because of resource constraints. The Navy
asserted on a line item that is primarily an estimate based on its assets. In addition, it is
our position that the existence assertion should be examined when the Navy asserts the
audit readiness of a line item related to the assets. There was no impact on the outcome
of the audit readiness of the Navy Weapons Systems Environmental Liabilities by us not
testing the existence assertion.

Review of Internal Controls
We identified significant internal control weaknesses for the NAVSEA FIP team as
defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
Procedures,” January 4, 2006. The NAVSEA FIP team did not have internal controls in
place to:

   •   verify that the formulas used to calculate the environmental liability were correct;
   •   report all of the disposal costs related to its weapons systems in its environmental
       liability estimate;
   •   ensure that the external source or internal supporting documentation is adequate
       and provided in a timely manner;
   •   reconcile the data from the workbooks to the external source documentation and
       internal supporting documentation; and
   •   ensure the accuracy and reliability of the data entered into the workbooks.

Implementing Recommendations A.1-2, B., C.1-4, and D.1-2 will improve the NAVSEA
FIP team’s internal controls over the reporting of the Environmental Disposal for
Weapons Systems portion of the Environmental Liabilities line item. We will provide a
copy of the final report to the senior official responsible for internal controls in the
NAVSEA FIP team.

Use of Computer-Processed Data
To achieve the audit objectives, we relied on computer-processed data from the Aircraft
Inventory Readiness Reporting System to identify aircraft used by the Navy. Although
we did not formally assess the reliability of the computer-processed data, we determined
that the entries included in the computer-processed data were reasonable. We did not
find any unreasonable entries that would preclude the use of the computer-processed data
to meet the audit objectives or that would change the audit results.




                                             28
Use of Technical Assistance
The DoD OIG Quantitative Methods Directorate assisted with the audit. See Appendix G
for detailed information about the work performed by the Quantitative Methods
Directorate.

Prior Coverage
During the last 5 years, the GAO, the DoD Inspector General (IG), and the Naval Audit
Service have issued three reports discussing environmental liabilities. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD
Office of the Inspector General reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
Report No. GAO-06-427, “Environmental Liabilities: Long-Term Fiscal Planning
Hampered by Control Weaknesses and Uncertainties in the Federal Government’s
Estimates,” March 2006

DoD IG
Report No. D-2004-080, “Environmental Liabilities Required To Be Reported on Annual
Financial Statements,” May 5, 2004

Naval Audit Service
Report No. N2005-0050, “Agreed-Upon Procedures Attestation Engagement of
Department of the Navy General Fund, Fiscal Year 2004 Environmental Liabilities
Account,” July 15, 2005




                                           29
30
Appendix B. Glossary
Adjustment for Efficiency. An adjustment for efficiency is applicable when two
disposal processes can be completed at the same location. The cost savings of not having
to transport the vessel to a second location to perform part of the process is recognized.

Approval to Decommission, Strike, and Dispose Order. An Approval to
Decommission, Strike, and Dispose Order is a memorandum from the Office of the Chief
of Naval Operations that provides a(n) approximate date of decommissioning,
recommendation to strike the vessel from the NVR, and subsequently, final disposal of
the vessels.

Commission Date. The commission date is the date of placing a vessel into active
military duty.

Commissioning Order. A Commissioning Order is a memorandum from the Office of
the Chief of Naval Operations that provides an approximate date of commissioning and
directions for the Commanding Officer.

Decommission Date. The decommission date is the date of the vessel’s removal from
active military duty.

Fleet. A fleet is the largest organized unit of naval vessels grouped for tactical or other
purposes. They are generally assigned to a particular ocean.

Historical Inventory. The historical inventory sheet summarizes the data for all of the
decommissioned vessels that have been completely disposed.

Hull Number. A hull number is a serial identification number given to a vessel.

Hull Size Factor. The hull size factor is an adjustment to the disposal costs for the
additional material and labor needed when a vessel’s hull size is much larger than the
average hull size.

Information Request. An Information Request is a memorandum from the Office of the
Chief of Naval Operations, Department of the Navy Program Information Center that
provides an approximate date of commissioning and vessels stricken from the NVR.

Light Displacement Tonnage. The light displacement tonnage is the weight of a vessel
when it is complete and ready for service, including permanent ballast (solid and liquid),
and liquids in machinery at operating levels but without officers, men, their effects,
ammunition, or any items of consumable or variable load.

Man Days. Man days is the number of days needed to handle the inactivation for a
vessel.



                                             31
Non-Nuclear Vessel. A non-nuclear vessel burns a petroleum-based fuel to generate
power for propulsion and for operating shipboard equipment.

Nuclear-Powered Vessel. A nuclear-powered vessel uses an onboard nuclear reactor to
generate power for propulsion and shipboard equipment.

Significant Deficiency. A significant deficiency is a control deficiency, or a
combination of control deficiencies, adversely affecting the entity’s ability to initiate,
authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles. Significant deficiencies result in more than a remote
likelihood that a misstatement of an entity’s financial statements that is more than
inconsequential will not be prevented or detected.

Spent Nuclear Fuel. Spent nuclear fuel consists of fuel elements and material test
specimens that have been removed from nuclear reactors. These spent fuels are
radioactive and must be stored in special facilities that shield and cool the materials.

Status. The status categorizes a vessel into a specific grouping. It identifies where a
particular vessel is in its life cycle.

Unit Identification Code. The unit identification code is the number assigned to serve
as a permanent identification of the vessel for fiscal purposes.

Useful Life. The useful life is the typical operating service life of an asset for the
purpose it was acquired.

Weapons System. A weapons system is a combination of one or more weapons with all
related equipment, materials, services, personnel, and means of delivery and deployment
required for self-sufficiency.




                                              32
Appendix C. Misstatements in Aggregate
GAO/President’s Council on Integrity and Efficiency, “Financial Audit Manual,” Part I,
July 2001, with July 2004 updates, Section 230, “Determine Planning, Design, and Test
Materiality,” defines test materiality as the materiality actually used by the auditor in
testing a specific line item, account, or class of transactions. Generally, the test
materiality used for a specific test is the same as the design materiality. We based the
design materiality upon the planning materiality of $562.7 million, which we calculated
in relation to the element of the financial statements that was most significant to the
primary users of the statements. This element represents the materiality base. The
materiality base used was the Environmental and Disposal Liabilities line item totaling
$18.8 billion. Based on this guidance, we determined the preliminary design and test
materiality thresholds for this audit to be $187.6 million as follows.

$18,755,882,874 x .03 = $562,676,486 (Planning Materiality)
$562,676,486 x .33 = $187,558,829 (Design and Test Materiality)

The table shows the amount of misstatements found during our audit work. The
Environmental Liability Disposal for Weapons Systems was valued at $13.1 billion. Had
we used the Environmental Liability Disposal for Weapons Systems amount
of $13.1 billion as the materiality base, the test materiality threshold would have
been $131.0 million. In turn, this would have made the absolute value of $158.6 million
(1.2 percent) in misstatements found in the Environmental Liability Disposal for
Weapons Systems material.

                                              Misstatements in Aggregate
                                                Net Value             Absolute Value           Environmental        Absolute
                                                                                              Liability Disposal     Value
                                                                                                for Weapons         Percent
                                                                                                  Systems
Nuclear                                    ($ 16,993,695.99)         $ 25,438,601.35
Non-Nuclear                                   (3,961,122.36)            5,381,925.36
Completeness (Aircraft                      (127,748,708.36)         127,748,708.36*
Disposal)
  Total                                    ($148,703,526.71)         $158,569,235.07          13,095,037,590.02    1.2 percent
*
    This absolute amount only represents two aircraft out of the numerous aircraft owned by the Navy.




                                                                   33
34
Appendix D. Unsupported Commission Date
Detail
Count Class    Hull      Name                 Environmental
                                                    Liability
    1   AFS    0009      Spica                $ 364,238.89
    2   AGF    0003      Lasalle                  341,181.73
    3   AGOR   0015      Knorr                    133,775.92
    4   AGOR   0023      Thomas G. Thompson       189,662.58
    5   AGOS   0004      Triumph                   55,858.29
    6   AKE    T-AKE-1   Lewis & Clark            846,009.51
    7   AO     0187      Henry J Kaiser           339,075.89
    8   AO     0193      Walter S Diehl           339,075.89
    9   AO     0196      Kanawha                  339,075.89
   10   AO     0197      Pecos                    339,075.89
   11   AO     0198      Big Horn                 339,075.89
   12   AO     0200      Guadalupe                339,075.89
   13   AO     0201      Patuxent                 339,075.89
   14   AO     0203      Laramie                  339,075.89
   15   AO     0204      Rappahannock             339,075.89
   16   AOE    0002      Camden                   737,258.05
   17   AOE    0007      Rainier                  736,437.13
   18   AOE    0008      Arctic                   739,970.66
   19   ARS    0051      Grasp                    416,182.18
   20   ARS    0053      Grapple                  407,405.33
   21   AS     0039      Emory S Land           2,341,503.51
   22   ATF    0169      Navajo                   221,336.15
   23   ATF    0170      Mohawk                    49,505.08
   24   ATF    0171      Sioux                    221,336.15
   25   BB     0061      Iowa                   9,206,623.64
   26   BB     0064      Wisconsin              9,197,064.13
   27   CG     0030      Horne                    545,048.88
   28   CG     0033      Fox                      553,321.87
   29   CG     0048      Yorktown                 668,967.63
   30   CG     0049      Vincennes                659,022.45
   31   CG     0051      Thomas S. Gates          640,452.24
   32   CG     0056      San Jacinto              629,450.93
   33   CG     0057      Lake Champlain           644,412.71
   34   CG     0058      Philippine Sea           610,968.73
   35   CG     0059      Princeton                629,538.94
   36   CG     0061      Monterey                 631,563.18
   37   CG     0062      Chancellorsville         632,971.35
   38   CG     0063      Cowpens                  631,739.20
   39   CG     0065      Chosin                   635,435.64
   40   CG     0069      Vicksburg                636,139.72


                                35
Count Class      Hull     Name                   Environmental
                                                       Liability
   41   CG       0072     Vella Gulf                 630,859.09
   42   CG       0073     Port Royal                 636,403.75
   43   CGN      CGN 37   South Carolina          64,577,273.80
   44   CGN      CGN 40   Mississippi             64,577,273.80
   45   CGN      CGN 9    Long Beach              77,481,742.00
   46   CV       0062     Independence             5,285,821.20
   47   CV       0063     Kitty Hawk               5,380,344.45
   48   CV       0064     Constellation            5,456,033.46
   49   CV/AVT   0059     Forrestal                5,162,430.51
   50   CVN 65   CVN 65   Enterprise             802,438,217.40
   51   CVN 68   CVN 68   Nimitz                 661,121,999.41
   52   CVN 68   CVN 69   Dwight D. Eisenhower   663,202,512.04
   53   CVN 68   CVN 71   Theodore Roosevelt     675,471,153.48
   54   CVN 68   CVN 74   John C. Stennis        674,256,663.47
   55   DD       0963     Spruance                   575,878.84
   56   DD       0979     Conolly                    570,690.74
   57   DD       0981     John Hannock               567,664.35
   58   DDG      0037     Farragut                   811,459.51
   59   DDG      0051     Arleigh Burke            1,071,413.79
   60   DDG      0052     Barry                    1,096,467.71
   61   DDG      0053     John Paul Jones          1,094,233.60
   62   DDG      0055     Stout                    1,091,999.49
   63   DDG      0056     John S McCain            1,081,467.27
   64   DDG      0057     Mitscher                 1,094,871.91
   65   DDG      0058     Laboon                   1,079,871.48
   66   DDG      0061     Ramage                   1,094,552.76
   67   DDG      0062     Fitzgerald               1,092,159.07
   68   DDG      0063     Stethem                  1,102,531.71
   69   DDG      0064     Carney                   1,086,254.65
   70   DDG      0065     Benfold                  1,105,084.97
   71   DDG      0066     Gonzalez                 1,084,658.85
   72   DDG      0067     Cole                     1,088,648.33
   73   DDG      0069     Milius                   1,099,978.44
   74   DDG      0070     Hopper                   1,082,743.91
   75   DDG      0073     Decatur                  1,016,573.31
   76   DDG      0075     Donald Cook              1,012,989.62
   77   DDG      0076     Higgins                  1,019,217.76
   78   DDG      0080     Roosevelt                1,068,022.74
   79   DDG      0081     Winston S. Churchill     1,067,194.07
   80   DDG      0084     Bulkeley                 1,065,666.67
   81   DDG      0085     McCampbell               1,084,698.75
   82   DDG      0086     Shoup                    1,051,306.83
   83   DDG      0088     Preble                   1,070,541.81
   84   DDG      0091     Pinckney                 1,101,549.16



                                  36
Count Class   Hull   Name              Environmental
                                             Liability
   85   DDG   0092   Momsen              1,114,198.08
   86   DDG   0093   Chung-Hoon          1,101,705.32
   87   DDG   0097   Halsey              1,097,477.61
   88   DDG   0098   Forrest Sherman     1,098,775.90
   89   DDG   0099   Farragut            1,097,666.83
   90   DDG   0101   Gridley             1,101,095.50
   91   FFG   0012   George Philip         546,344.67
   92   FFG   0014   Sides                 560,897.50
   93   FFG   0033   Jarrett               553,007.41
   94   FFG   0036   Underwood             561,774.18
   95   FFG   0041   McClusky              561,248.17
   96   FFG   0046   Rentz                 549,325.37
   97   FFG   0047   Nicholas              562,826.19
   98   FFG   0048   Vandegrift            556,338.78
   99   FFG   0050   Taylor                553,884.09
  100   FFG   0053   Hawes                 551,604.73
  101   FFG   0054   Ford                  555,286.77
  102   FFG   0059   Kauffman              560,020.82
  103   LCC   0019   Blue Ridge          1,157,513.79
  104   LHA   0002   Saipan              2,419,496.01
  105   LHA   0004   Nassau              2,361,497.10
  106   LHA   0005   Peleliu             2,373,202.50
  107   LHD   0002   Essex               2,454,172.13
  108   LHD   0005   Bataan              2,448,891.51
  109   LHD   0007   Iwo Jima            2,351,043.66
  110   LKA   0113   Charleston            895,594.61
  111   LKA   0114   Durham                874,560.10
  112   LKA   0115   Mobile                879,840.73
  113   LPD   0004   Austin                809,080.31
  114   LPD   0007   Cleveland             880,104.76
  115   LPD   0009   Denver                874,912.15
  116   LSD   0041   Whidbey Island      1,016,344.98
  117   LSD   0042   Germantown          1,011,768.44
  118   LSD   0048   Ashland             1,017,489.12
  119   LSD   0050   Carter Hall         1,026,202.15
  120   LSD   0052   Pearl Harbor          934,506.79
  121   LST   1187   Tuscaloosa            439,348.30
  122   LST   1191   Racine                438,292.17
  123   MCM   0002   Defender              236,617.77
  124   MCM   0005   Guardian              235,682.52
  125   MCM   0007   Patriot               236,243.67
  126   MCM   0008   Scout                 234,560.22
  127   MCM   0014   Chief                 248,401.89
  128   MHC   0054   Robin                  32,265.75



                             37
Count Class    Hull       Name                     Environmental
                                                         Liability
  129   MHC    0055       Oriole                        28,732.22
  130   MHC    0057       Cormorant                    169,654.00
  131   MHC    0059       Falcon                        29,374.68
  132   MHC    0062       Shrike                       144,896.12
  133   PC     0005       Typhoon                       53,870.29
  134   PC     0006       Sirocco                       53,870.29
  135   PC     0007       Squall                        53,870.29
  136   PC     0009       Chinook                       53,870.29
  137   PG     0085       Gallup                         6,424.60
  138   PG     0100       Lauren/Douglas                 6,424.60
  139   SS     0572       Sailfish                      72,455.16
  140   SSBN   SSBN 626   Daniel Webster            48,539,593.38
  141   SSBN   SSBN 635   Sam Rayburn               48,539,593.38
  142   SSBN   SSBN 730   Henry M. Jackson          71,550,921.00
  143   SSBN   SSBN 732   Alaska                    71,550,921.00
  144   SSBN   SSBN 733   Nevada                    71,550,921.00
  145   SSBN   SSBN 735   Pennsylvania              71,550,921.00
  146   SSBN   SSBN 736   West Virginia             71,550,921.00
  147   SSBN   SSBN 739   Nebraska                  71,550,921.00
  148   SSBN   SSBN 740   Rhode Island              71,550,921.00
  149   SSBN   SSBN 741   Maine                     71,550,921.00
  150   SSBN   SSBN 742   Wyoming                   71,550,921.00
  151   SSBN   SSBN 743   Louisiana                 71,550,921.00
  152   SSGN   SSGN 727   Michigan                  71,550,921.00
  153   SSGN   SSGN 728   Florida                   71,550,921.00
  154   SSGN   SSGN 729   Georgia                   71,550,921.00
  155   SSN    SSN 571    Nautilus                  17,077,342.62
  156   SSN    SSN 586    Triton                    22,798,685.26
  157   SSN    SSN 671    Narwhal                   18,668,307.32
  158   SSN    SSN 688    Los Angeles               49,105,758.00
  159   SSN    SSN 692    Omaha                     18,456,266.92
  160   SSN    SSN 693    Cincinnati                18,456,266.92
  161   SSN    SSN 695    Birmingham                18,456,266.92
  162   SSN    SSN 696    New York City             18,456,266.92
  163   SSN    SSN 697    Indianapolis              18,456,266.92
  164   SSN    SSN 698    Bremerton                 37,857,300.00
  165   SSN    SSN 699    Jacksonville              37,857,300.00
  166   SSN    SSN 700    Dallas                    37,857,300.00
  167   SSN    SSN 701    La Jolla                  37,857,300.00
  168   SSN    SSN 702    Phoenix                   18,456,266.92
  169   SSN    SSN 704    Baltimore                 18,456,266.92
  170   SSN    SSN 705    City of Corpus Christi    37,857,300.00
  171   SSN    SSN 706    Albuquerque               37,857,300.00
  172   SSN    SSN 707    Portsmouth                18,456,266.92



                                   38
Count Class       Hull      Name                      Environmental
                                                             Liability
  173   SSN       SSN 708   Minneapolis- St. Paul       47,365,093.10
  174   SSN       SSN 709   Hyman G. Rickover           47,365,093.10
  175   SSN       SSN 710   Augusta                     47,365,093.10
  176   SSN       SSN 711   San Francisco               37,857,300.00
  177   SSN       SSN 714   Norfolk                     37,857,300.00
  178   SSN       SSN 715   Buffalo                     37,857,300.00
  179   SSN       SSN 716   Salt Lake City              18,456,266.92
  180   SSN       SSN 718   Honolulu                    37,857,300.00
  181   SSN       SSN 719   Providence                  37,857,300.00
  182   SSN       SSN 720   Pittsburgh                  37,857,300.00
  183   SSN       SSN 721   Chicago                     37,857,300.00
  184   SSN       SSN 723   Oklahoma City               37,857,300.00
  185   SSN       SSN 725   Helena                      37,857,300.00
  186   SSN       SSN 750   Newport News                37,857,300.00
  187   SSN       SSN 751   San Juan                    37,857,300.00
  188   SSN       SSN 753   Albany                      37,857,300.00
  189   SSN       SSN 754   Topeka                      37,857,300.00
  190   SSN       SSN 756   Scranton                    37,857,300.00
  191   SSN       SSN 758   Asheville                   37,857,300.00
  192   SSN       SSN 759   Jefferson City              37,857,300.00
  193   SSN       SSN 760   Annapolis                   37,857,300.00
  194   SSN       SSN 761   Springfield                 37,857,300.00
  195   SSN       SSN 762    Columbus                   37,857,300.00
  196   SSN       SSN 763   Santa Fe                    37,857,300.00
  197   SSN       SSN 765   Montpelier                  37,857,300.00
  198   SSN       SSN 766   Charlotte                   37,857,300.00
  199   SSN       SSN 767   Hampton                     37,857,300.00
  200   SSN       SSN 768   Hartford                    37,857,300.00
  201   SSN       SSN 769   Toledo                      37,857,300.00
  202   SSN       SSN 770   Tucson                      37,857,300.00
  203   SSN       SSN 771   Columbia                    37,857,300.00
  204   SSN       SSN 773   Cheyenne                    37,857,300.00
          Total                                     $6,546,300,873.50




                                     39
40
     Hull Number   Vessel Name        Commission   LDT   Useful   Decommission   Fleet   UIC   Total Errors
                                        Date              Life        Date                      Per Vessel
     SSBN 730      Henry M. Jackson                        X                                         1
     SSBN 731      Alabama                X                X                                         2
     SSBN 732      Alaska                                  X                      X                  2
     SSBN 733      Nevada                                  X                                         1
     SSBN 734      Tennessee                               X                                         1
                                                                                                              Workbook


     SSBN 735      Pennsylvania           X                X                                         2
     SSBN 736      West Virginia                           X                                         1
     SSBN 737      Kentucky                                X                                         1
     SSBN 738      Maryland                                X                                         1
     SSBN 739      Nebraska                                X                                         1
     SSBN 740      Rhode Island                            X                                         1
     SSBN 741      Maine                  X                X                      X                  3
     SSBN 742      Wyoming                                 X                                         1
     SSBN 743      Louisiana                               X                      X                  2
     SSGN 726      Ohio                                    X                      X                  2
     SSGN 727      Michigan                                X                      X                  2




41
     SSGN 728      Florida                                 X                      X                  2
     SSGN 729      Georgia                                 X                      X                  2
     SSN 21        Seawolf                                 X                      X                  2
     SSN 688       Los Angeles            X                                                          1
     SSN 690       Philadelphia           X                                                          1
     SSN 691       Memphis                X                                                          1
     SSN 698       Bremerton              X                                                          1
     SSN 699       Jacksonville           X                                                          1
     SSN 700       Dallas                 X                                                          1
     SSN 701       La Jolla               X                                                          1
     SSN 710       Augusta                X                                                          1
     SSN 711       San Francisco          X                                                          1
     SSN 713       Houston                X                                                          1
                                                                                                              Appendix E. Data Input Errors in Nuclear




     SSN 714       Norfolk                X                                                          1
     SSN 715       Buffalo                X                                                          1
     SSN 717       Olympia                X                                                          1
     SSN 719       Providence             X                                                          1
     Hull Number   Vessel Name      Commission   LDT   Useful   Decommission   Fleet   UIC   Total Errors
                                      Date              Life        Date                      Per Vessel
     SSN 720       Pittsburgh          X                                                           1
     SSN 721       Chicago             X                                                           1
     SSN 722       Key West            X                                                           1
     SSN 723       Oklahoma City       X                                                           1
     SSN 724       Louisville          X                                                           1
     SSN 725       Helena              X                                                           1
     SSN 750       Newport News        X                                                           1
     SSN 751       San Juan            X                                                           1
     SSN 752       Pasadena            X                                                           1
     SSN 753       Albany              X                                                           1
     SSN 754       Topeka              X                                                           1
     SSN 755       Miami               X                                                           1
     SSN 756       Scranton            X                                                           1
     SSN 757       Alexandria          X                                                           1
     SSN 758       Asheville           X                                                           1
     SSN 759       Jefferson City      X                                                           1




42
     SSN 760       Annapolis           X                                                           1
     SSN 761       Springfield         X                                                           1
     SSN 762       Columbus            X                                                           1
     SSN 763       Santa Fe            X                                                           1
     SSN 764       Boise               X                                                           1
     SSN 765       Montpelier          X                                                           1
     SSN 766       Charlotte           X                                        X                  2
     SSN 767       Hampton             X                                        X                  2
     SSN 768       Hartford            X                                                           1
     SSN 769       Toledo              X                                                           1
     SSN 770       Tucson              X                                                           1
     SSN 771       Columbia            X                                                           1
     SSN 772       Greenville          X                                                           1
     SSN 773       Cheyenne            X                                                           1
     NR1           NR1                 X                                                           1
     AS 0039*      Emory S. Land                 X       X                                         2
     AS 0040*      Frank Cable                   X       X                                         2
     SSN 22        Connecticut                                                  X                  1
     Hull Number         Vessel Name                    Commission          LDT       Useful       Decommission           Fleet      UIC       Total Errors
                                                          Date                         Life            Date                                     Per Vessel
     SSN 23              Jimmy Carter                                         X                                                                      1
     SSN 683             Parche                                X                         X                 X                                         3
     CGN 9               Long Beach                                                      X                                                           1
     CGN 37              South Carolina                                                  X                                                           1
     CGN 40              Mississippi                                                     X                                                           1
     SSBN 626            Daniel Webster                                                  X                                                           1
     SSBN 635            Sam Rayburn                                                     X                                                           1
     SSN 571             Nautilus                                                        X                                                           1
     SSN 586             Triton                                                          X                 X                                         2
     SSN 671             Narwhal                                                         X                                                           1
     SSN 677             Drum                                                            X                                                           1
     SSN 692             Omaha                                                           X                                                           1
     SSN 693             Cincinnati                                                      X                 X                                         2
     SSN 694             Groton                                                          X                                                           1
     SSN 695             Birmingham                                                      X                                                           1
     SSN 696             New York City                                                   X                                                           1




43
     SSN 697             Indianapolis                                                    X                                                           1
     SSN 702             Phoenix                                                         X                                                           1
     SSN 704             Baltimore                                                       X                                                           1
     SSN 707             Portsmouth                                                      X                                                           1
     SSN 709             Hyman G. Rickover                                               X                 X                                         2
     SSN 712             Atlanta                                                         X                                                           1
     SSN 716             Salt Lake City                                                  X                 X                                         2
     SSN 718             Honolulu                             X                          X                 X                                         3
     AS 0033*            Simon Lake                           X                          X                 X                          X              4
     AS 0041*            McKee                                X                          X                 X                          X              4
       Total             93                                   52              3          46                8                11        2            122
                *
                    These vessels are included on the nuclear and non-nuclear list because they have a nuclear component that must be accounted for.
44
                   Vessel Name          Commission   Status   LDT   Useful   Decommission   Fleet    Hull    UIC   Total Errors
     Hull Number                          Date                       Life        Date               Number          Per Vessel
     AE 0026       Kilauea                             X              X                                                  2
     AE 0032       Flint                                              X                                                  1
     AE 0033       Shasta                                             X                                                  1
     AE 0034       Mount Baker                                        X                                                  1
     AE 0035       Kiska                                              X                                                  1
     AFS 0003      Niagara Falls                                      X                                                  1
     AFS 0005      Concord                                            X                      X                           2
     AFS 0007      San Jose                                           X                                                  1
     AFS 0009      Spica                    X                         X                      X                           3
     AFS 0010      Saturn                   X                         X                                                  2
     AGOR 0014     Melville                                           X                                                  1
     AGOR 0015     Knorr                                              X                                                  1
     AGOR 0023     Thomas G. Thompson                                 X                                                  1
     AGOR 0024     Roger Revelle                                      X                                                  1
     AGOS 0019     Victorious               X                         X                                                  2
     AGOS 0021     Effective                                          X                                      X           2
                                                                                                                                  Non-Nuclear Workbook




45
     AGOS 0022     Loyal                    X                         X                      X               X           4
     AGOS 0023     Impeccable               X                         X                      X               X           4
     AO 0187       Henry J. Kaiser          X          X                                                     X           3
     AO 0189       John Lenthall            X                                                                            1
     AO 0193       Walter S. Diehl          X                                                                X           2
     AO 0194       John Ericsson            X                                                                            1
     AO 0195       Leroy Grumman            X                                                                            1
                                                                                                                                  Appendix F. Data Input Errors in




     AO 0196       Kanawha                  X                                                                            1
     AO 0197       Pecos                    X                                                                            1
     AO 0198       Big Horn                 X                                                                            1
     AO 0199       Tippecanoe               X                                                                            1
     AO 0200       Guadalupe                X                                                                            1
     AO 0201       Patuxent                 X                                                                            1
     AO 0202       Yukon                    X                                                                            1
     AO 0203       Laramie                  X                                                                            1
     AO 0204       Rappahannock             X                                                                            1
     ARS 0050      Safeguard                           X                                                                 1
                   Vessel Name       Commission   Status   LDT   Useful   Decommission   Fleet    Hull    UIC   Total Errors
     Hull Number                       Date                       Life        Date               Number          Per Vessel
     ARS 0051      Grasp                            X                                                                 1
     ARS 0052      Salvor                           X                                                                 1
     ARS 0053      Grapple                          X                                     X                           2
     ATF 0168      Catawba               X                         X                                                  2
     ATF 0169      Navajo                X                         X                                                  2
     ATF 0171      Sioux                 X                         X                                                  2
     ATF 0172      Apache                X                         X                                      X           3
     CV 0067       John F. Kennedy                                 X                                                  1
     DDG 0051      Arleigh Burke                                   X                                                  1
     DDG 0059      Russell                                                                                X           1
     FFG 0008      McInerney                                       X                                                  1
     FFG 0033      Jarrett                                                                                X           1
     FFG 0050      Taylor                                                                                 X           1
     LCC 0020      Mount Whitney                    X                                                                 1
     LHA 0002      Saipan                                                                 X                           1
     LPD 0007      Cleveland                                       X                                                  1




46
     LPD 0008      Dubuque                                         X                                                  1
     LPD 0009      Denver                                          X                                      X           2
     LPD 0010      Juneau                                          X                                                  1
     LPD 0012      Shreveport                                      X                                                  1
     LPD 00013     Nashville                                       X                                                  1
     LPD 0014      Trenton                                         X                      X                           2
     LPD 0015      Ponce                                           X                                                  1
     LSD 0043      Fort McHenry                                                           X                           1
     LSD 0046      Tortuga                                                                X                           1
     LSD 0049      Harpers Ferry         X                                                                            1
     MCM 0003      Sentry                                                                 X                           1
     MCM 0004      Champion                                                               X                           1
     MCM 0005      Guardian                                                               X                           1
     MCM 0006      Devastator                                                             X                           1
     MCM 0007      Patriot                                                                X                           1
     MCM 0008      Scout                                                                  X                           1
     MCM 0009      Pioneer                                                                X                           1
     MCM 0010      Warrior                                                                X                           1
                   Vessel Name        Commission   Status   LDT   Useful   Decommission   Fleet    Hull    UIC   Total Errors
     Hull Number                        Date                       Life        Date               Number          Per Vessel
     MCM 0011      Gladiator             X                                                 X                           2
     MCM 0012      Ardent                                                                  X                           1
     MCM 0013      Dextrous                                                                X                           1
     MCM 0014      Chief                                                                   X                           1
     MHC 0052      Heron                                                                   X                           1
     MHC 0053      Pelican                                                                 X                           1
     PC 0003       Hurricane                                        X                                                  1
     PC 0005       Typhoon                                          X                                                  1
     PC 0006       Sirocco                                          X                                                  1
     PC 0007       Squall                                           X                                                  1
     PC 0009       Chinook                                          X                                                  1
     PC 0010       Firebolt                                         X                                                  1
     PC 0011       Whirlwind                                        X                                                  1
     PC 0012       Thunderbolt                                      X                                                  1
     T-AKE-1       Lewis & Clark          X                                                                            1
     T-AKE-2       Sacagawea              X                                                                            1




47
     DDG 0101      Gridley                X                 X                                                          2
     LPD 0017      San Antonio                              X                                                          1
     LPD 0018      New Orleans                              X                                                          1
     AGOR 0025     Atlantis               X                                                                            1
     AGOR 0026     Kilo Moana             X                         X                                                  2
     AD 0038       Puget Sound                                      X                                                  1
     AD 0042       Acadia                                           X                                                  1
     AE 0028       Santa Barbara                                    X                                                  1
     AGF 0003      La Salle                                         X                                                  1
     AGOS 0004     Triumph                X                         X           X                                      3
     AGOS 0020     Able                   X                         X           X                                      3
     AO 0190       Higgins                X                         X           X                                      3
     AO 0188       Joshua Humphreys       X          X                          X          X                           4
     AOE 0001      Sacramento                                       X                                                  1
     AOE 0002      Camden                                           X                                                  1
     AOE 0003      Seattle                                          X                                                  1
     AS 0033       Simon Lake                                       X                                                  1
     AS 0036       Spear                                            X                                                  1
                   Vessel Name       Commission   Status   LDT   Useful   Decommission   Fleet    Hull    UIC   Total Errors
     Hull Number                       Date                       Life        Date               Number          Per Vessel
     AS 0041       McKee                                           X                                                  1
     ATF 0170      Mohawk                X                         X           X                                      3
     CV/AVT 0059   Forrestal                                       X                                                  1
     BB 0061       Iowa                                            X                                                  1
     BB 0064       Wisconsin                                       X                                                  1
     CG/CA 0134    Des Moines            X                         X                                                  2
     CG 0029       Jouett                                          X                                                  1
     CG 0030       Horne                                           X                                                  1
     CG 0033       Fox                                             X                                                  1
     CG 0047       Ticonderoga                                     X                                                  1
     CG 0048       Yorktown                                        X                                                  1
     CG 0049       Vincennes                                       X                                                  1
     CG 0050       Valley Forge                                    X                                                  1
     CG 0051       Thomas S. Gates                                 X                                                  1
     CV 0060       Saratoga                                        X                                                  1
     CV 0061       Ranger                                          X                                                  1




48
     CV 0062       Independence                                    X                                                  1
     CV 0064       Constellation                                   X                                                  1
     DD 0931       Forrest Sherman                                 X                                                  1
     DD 0946       Edson                                           X                                                  1
     DD 0971       David R. Ray                                    X                                                  1
     DD 0979       Conolly                                         X                                                  1
     DD 0980       Moosbrugger                                     X                                                  1
     DD 0981       John Hancock                                    X                                                  1
     DD 0987       O’Bannon                                        X                                                  1
     DD 0992       Fletcher                                        X                                                  1
     DDG 0002      Adams                                           X                                                  1
     DDG 0037      Farragut                                        X                                      X           2
     FF 1052       Knox                                            X                                                  1
     LKA 0113      Charleston                                      X                                                  1
     LKA 0114      Durham                                          X                                                  1
     LKA 0115      Mobile                                          X                                                  1
     LKA 0116      St. Louis                                       X                                                  1
     LKA 0117      El Paso                                         X                                                  1
                   Vessel Name       Commission   Status   LDT   Useful   Decommission   Fleet    Hull    UIC   Total Errors
     Hull Number                       Date                       Life        Date               Number          Per Vessel
     LPD 0004      Austin                                          X                      X                           2
     LPD 0006      Duluth                                          X                                                  1
     LPD 0005      Ogden                 X                         X                      X               X           4
     LPH 0011      New Orleans                                     X                                                  1
     LSD 0036      Anchorage                                       X                                                  1
     LSD 0040      Fort Fisher                                     X                                                  1
     LST 1182      Fresno                                          X                                                  1
     LST 1187      Tuscaloosa                                      X                                                  1
     LST 1189      Boulder                                         X                               X                  2
     LST 1191      Racine                                          X                                                  1
     PG 0085       Gallup                                          X           X                                      2
     PG 0090       Canon                                           X                                                  1
     PG 0100       Lauren/Douglas                          X       X                                                  2
     SS 0566       Trout                                           X                                                  1
     SS 0572       Sailfish                                        X                                                  1
     MHC 0054      Robin                 X                                                                X           2




49
     CV 0034       Oriskany                                        X                                                  1
     DD 0974       Comte De Grasse                                 X                                                  1
     DD 0975       O’Brien                                         X                                                  1
     DD 0978       Stump                                           X                                                  1
     AE 0027       Butte                                           X                                                  1
     AFS 0001      Mars                                            X                                                  1
     WMEC 0168     Yocona                                          X                                                  1
     AFS 0006      San Diego                                       X                                                  1
       Total       159                   38         8       4     111          6          26       1      13        207
50
Appendix G. Attribute Sampling Methodology
Sampling Plan
Sampling Purpose
We used an attribute sampling plan developed by the DoD OIG Quantitative Methods
Directorate to determine the number of vessels associated with the status of vessels
(commissioned prior to October 1, 1997; commissioned after September 30, 1997; or
inactive). The results of our testing allowed us to determine the reliability of data coming
from the Naval Vessel Register.

Sample Design
We applied attribute sampling to vessels included in the workbooks. The Quantitative
Methods Directorate designed the sample plan by type of vessel (nuclear or non-nuclear)
and vessel status within each type. They based the plan on a 90 percent confidence
interval with a 5 percent precision. The audit team used a random sample from each type
and status of vessels, and reviewed documentation supporting the commission and
decommission dates. We did not use statistical sampling to project our audit result;
therefore, there are no sampling results. The table identifies the type, status, and number
of randomly selected sample items tested.

                                  Sampling Plan
                             Nuclear Vessels Sampled
    Status                                Population                                          Sample Size
    Commissioned Pre Oct. 1, 1997              75                                                54
    Commissioned Post Sept. 30, 1997            6                                                 6
    Inactive                                   23                                                20
     Total Nuclear Vessels                    104*                                               80*
                           Non-Nuclear Vessels Sampled
    Commissioned Pre Oct. 1, 1997             174                                                    85
    Commissioned Post Sept. 30, 1997           40                                                    20
    Inactive                                   70                                                    35
     Total Non-Nuclear Vessels                284                                                   140
      Grand Total                             388*                                                  220*
    * The original number of Nuclear Vessels included an additional 10 vessels in a category of Nuclear Carriers for
      a total population of 114 and sample of 90. However, because these 10 vessels were already included in the
      other categories, we excluded them from the count.




                                                           51
52
Department of the Navy Comments




                  Click to add JPEG file




                                 53
Click to add JPEG file




               54
Click to add JPEG file




               55
Click to add JPEG file




               56
Click to add JPEG file




               57
Click to add JPEG file




               58
Click to add JPEG file




               59
Click to add JPEG file




               60
Click to add JPEG file




               61
Click to add JPEG file




               62
Click to add JPEG file




               63
Click to add JPEG file




               64
Click to add JPEG file




               65
Click to add JPEG file




               66
Click to add JPEG file




               67
Click to add JPEG file




               68
Click to add JPEG file




               69
70
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Paul J. Granetto
Patricia A. Marsh
Amy J. Frontz
Edward A. Blair
Laura J.S. Croniger
Dwayne A. Coulson
Cindy L. McMahan
Serhij (Peter) Nahornyj
Juntyna M. McDonald
Joanna B. Sokolowski
Kandasamy Selvavel
Ann Thompson
